No.

IN THE SUPREME COURT OF THE UNITED STATES
BRENDA SUE COOK,
Plaintiff
CASE#
STATE OF WEST VIRGINIA
Respondent

CERTIFICATE OF SERVICE
I, BRENDA SUE COOK, petitioner, pro se, do hereby certify that the foregoing document,
PETITION FOR WRIT OF CERTIORARI was served upon parties of record by depositing a
copy in the United States Mail, postage prepaid in a box addressed to:

Office of the Clerk
Supreme Court of the United States
Washington, D.C. 20543
Office of the WV Attorney General
1900 Kanawha Blvd E. Bldg 1
Rm E-26
Charleston, WV 25305

Original Plus Personal Check in
the amount of $300
One Copy

Dated on this 22nd day of June 2021.

ylhtMdU- shut. CjGyK
Brenda Sue Cook, Petitioner, Pro se

